20 No.
“91
20-

FILED
JUL 0 6 2020
MjPf?FEMEFOn{u3TL^K

In the
Supreme Court of the United States

Joseph H. Martin,
Petitioner,
V.

Department of Homeland Security,
Respondent,

On Petition for a Writ of Certiorari to the
United States Court of Appeals
For the Federal Circut
PETITION FOR WRIT OF CERTIORARI

Joseph H. Martin Pro Se
1810 East Blacklidge Drive APT# 813
Tucson, AZ. 85719

RECEIVED
JUL 1 4 2020
i

QUESTIONS PRESENTED
Weather the 4th amendment to the constitution
of the United States protects speech in my
personally rented hotel room; my home for the
period of rental time.
Weather the United States Labor Management
Relation Statute (5USC71) protects all Federal
Bargaining Unit Employee Members speech
during a Union meeting, including the speech
of their Elected Union Officials.
Weather the 1st amendment to the constitution
of the United States protects opinionated
speech in my personally rented hotel room; my
home for the period of rental time.
Weather the United States Federal Circuit
Court of Appeals Violated its own long standing
precedent setting case decisions that now
requires this court to exercise its supervisory
powers.

2

Weather the United States Federal Circuit
Court of Appeals Violated this courts’ long
standing precedent setting case decisions that
now

requires

this

supervisory powers.

3

court

to

exercise

its

PARTIES TO THE PROCEEDINGS
Joseph H. Martin, Petitioner here, was the
petitioner in the court of appeals.
Department of Homeland Security here, was
the respondent in the court of appeals.

4

TABLE OF CONTENTS
QUESTIONS PRESENTED
PARTIES TO PROCEEDINGS
TABLE OF AUTHORITIES

2,3

4
6,7

OPINIONS BELOW

8

JURISDICTION

9

INTRODUCTION

9

STATEMENT

11

REASON FOR GRANTING THE PETITION

24

APPENDIX A—Court of appeals En Banc Ruling
(June 12, 2020)

la

APPENDIX B—Court of Appeals Panel Ruling (April
20, 2020)

3a

APPENDIX C—Administrative Law Judge’s Final
Decision (November 28, 2018)

5

12a

TABLE OF AUTHORITIES
CASES
O’Keefe V US. Postal Service, United States Court
of Appeals, Federal Circuit, 318 F. 3d 1310 (Fed. Cir.
2002)

12,16,19

Brook v. Corrado, 999 F.2d523, 526*27 (Fed. Cir.
1993)

12,16,19

Lachance v. Merit Sys. Prot. Bd., 147 F. 3d 1367,
1371
(Fed. Cir. 1998)

12,16,19

Mclntire v. Fed. Emergency Mgmt. Agency, 55
M.S.P.R. 578, 583 n. 4 (1992)

12,16,19

Riley v. Dep’t of the Army, 53 M.S.P.R. 683, 688
(1992)

12,16,19

Shaw v. Dep’t of the Air Force, 80 M.S.P.R. 98, 106*
07 (1998)

12,16,20

Gottlieb v. Veterans Admin., 39 M.S.P.R. 606, 609*10
(1989)

20

Katz V. United States, U.S. Supreme Court., 389 U.S.
347.

12,13,16,18,25

6

Douglas vs Veterans Administration et al, 5 MSPB
313 (1981)

13,16,24

7

In The
Supreme Court of the United States

Joseph H. Martin,
Petitioner,
V.
Department of Homeland Security,
Respondent,

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
PETITION FOR A WRIT OF CERTIORARI

Joseph H. Martin respectfully petitions for a writ of
certiorari to review the decisions of the United States
Court of appeals for the Federal Circuit in this case.
OPINIONS BELOW
The Federal Circuit’s En Banc decision reported at
Appendix la.

The Federal Circuit’s Panel decision

reported at Appendix 3a. The Merit System Protection
Board (MSPB) Administrative Judge final decision
reported at Appendix 12a.
8

JURSIDICTION
The en Banc Federal Circuit Court of Appeals
entered its Decision on June 12, 20205 Petition at
Appendix la.

This Courts Jurisdiction is invoked

under 28 U.S.C 1254(l)
INTERDU CTION
In my case, the United States Federal Circuit
Court of Appeals denied my petition for a Rehearing
En Banc (la), thereby the court violated both their
long standing case precedent law, as well as

case

precedent setting law from this Court, with the
courts’ initial decision (3a) on my appeal from the
Merit System Protection Board (MSPB) termination
decision in my case (12a).

Therefore, their actions

beg for this court to exercise its

supervisory

authority.
The Questions presented are of extreme importance
to all citizens of the United States and all Unions,
especially the Federal sector Unions. Their decisions,
9

if not reversed, will deprive all United States Citizens
of their 1st and 4th amendment protections while in
their personal residence! in my case — my personally
rented Hotel room, and will directly affect all Federal
Employees rights to due process, as well as seriously
erode all Unions’ ability to hold confidential union
meetings with their members, without Government
interceptiong and/or intrusion, as well as advocate for
their Bargaining Unit members.

This Courts

intervention is essential to restore constitutional and
statutory rights that were eviscerated by the Federal
Circuit Court of Appeals in their decision on my case
and their subsequent denial of my petition for a
Rehearding En Banc (la) and (12a).
For

these

reasons,

granted.

10

Certiorari

should be

A. STATEMENT
The Federal Circuit Court of Appeals Panel
violated its own rules under rule 35 C when it denied
my request for a Rehearing En Banc (la), as the
Panels’ initial decision (3a) conflicted with Supreme
Court

Law

and

moreover,

failed

to

maintain

uniformity of previous Fedeal Circuit Court of
Appeals decisions.
The Civil Service Reform Act (CSRA) of 1978
protects Federal Employees from illegally imposed
administrative actions and allows Federal Employees
the ability to appeal any adverse action to the Merit
System Protection Board (MSPB), where the MSPB is
required to uphold the CSRA and reverse any
adverse action taken against a Federal Employee
that is not in accordance with the CSRA, Federal or
State Law.

In my case, the MSPB Administrative

Judge (AJ) did not follow the MSPB’s own case law
and deliberately deviated from the CSRA when the
MSPB AJ upheld my termination from the US
11

Department of Homeland Security (DHS) (12a).
Aside from “not” allowing illegally obtained evidence;
which the MSPB AJ did in mu case, the MSPB AJ’s
decision must be based solely on the charge alleged
within the Agency’s

Notice of Action, and the AJ

cannot substitute what the AJ considers to be a
better basis for a charge! which the MSPB AJ did in
my case. Furthermore, the Federal Circuit Court of
Appeals panel (The Panel), in their denial of my
MSPB case decision appeal (3a), merely regurgitated
the MSPB AJ’s decision wordage (12a); including
wordage that was “not” sustained by the MSPB AJ;
concerning “providing sexual favors for Union
Representation”, and without conducting any level of
case record analysis and review, thereby also
violating their long standing Federal Circuit case law
(3a) (see O’Keefe V. US. Postal Service, United
States Court of Appeals, Federal Circuit, 318 F 3d
1310 (Fed. Cir. 2002), Brook v. Corrado, 999 F. 2d
523 (Fed.Cir. 1993) Lachance v. Merit Sys. Prot.
Bd., 147 F.3d 1367, 1371 (Fed.Cir.1998) Mclntire v.
12

Fed. Emergency Mgmt. Agency 55 M.S.P.R. 578, 583
n. 4 (1992), Riley v. Dep't of the Army 53 M.S.P.R.
683, 688 (1992), Shaw v. Dep't of the Air Force, 80
M.S.P.R. 98, 106-07 (1998) and U.S. Supreme Court.
Katz V. United States, 389 U.S. 347 and Douglas vs
Veterans Administration et al, 5 MSPB 313 (1981).
The Panel also failed to properly address my
constitutional violation of my First (1st) and Fourth
(4th) amendment protections claim, by improperly
stating in their initial decision (3a), that the
conversations

recorded

by

the

Government

Investigators, through the utilization of a Bargaining
Unit Employee as an “cooperating witness”, occurred
in a “hotel room” when in fact, as I presented in my
Petition

for

Rehearding

En

Banc

(3a),

the

Government recorded conversations I had with this
“cooperating witness”, as the Union President, was in
fact with this Bargaining Unit member during a
Union Meeting in my personally rented hotel room;
which the record reflects the Government had several
days prior knowledge that this Union meeting was to
13

be held. Therefore, the Panels’ decision violated long
standing Supreme Court Law (3a). (See. Katz V.
United States, 389 US. 347. U.S. Supreme Court)
Further, the Panel’s decision (3a) also errored in
applying the protections afforded Federal Bargaining
Unit employees under the Federal Labor Relations
Statute (The Statute) at 5 USC §7114(b)(6), by
stating that the

Statute only protects Union

Members and not elected Union Officials, which I
was during the illegally intercepted and recorded
video surveillance by the Government investigators
and their cooperator, which was used as evidence to
support my termination of employment with DHS.
B.

FACTUAL

AND

PROCEDURAL

BACK

GROUND.
I was Honorably discharged from the U.S.
Army in June of 1993. I began my employment with
the U.S. Immigration and Naturalization Service in
that same month.

The U.S. Immigration and

Naturalization service was later merged into U.S.
14

Customs and Border Protection under the U.S.
Department of Homeland Security. During my time
as a Federal Employee I served in many capacities
within the Federal Unions of both Agencies. In my
termination case, I was Charged with three charges:
Charge 1 was Conduct Unbecoming a Customs and
Border

Protection

Officer;

of which

only

one

specification was upheld, Charge 2 was Lack Of
Candor, again of which only one specification was
upheld, and Charge 3 was Failure to Follow a NonDisclosure Warning, also where only one specification
was

upheld.

The

decision

by

the

Federal

CircuitCourt of Appeals Panel (3a), as well as their
denial of my request for a Rehearing an En Banc (la),
were entirely in error as I presented, and the record
holds, more than a substantial level of evidence to
support outright vacation of my case in its entirety.
Further, the Federal Circuit Panel’s decision in my
casce was in direct conflict with their own and this
Supreme Court of the United States past precedent
case decisions! Horizontal stare decisi, and involves
15

issues that are of extreme importance to all Federal
Government Employees and in fact, all citizens of the
United States.
In my judgement regarding Charge 2 of Lack of
Candor, the Federal Circuit Panel’s decision is
contrary to the following U.S. Supreme Court, Court
of Appeals for the Federal Circuit and MSPB
precedent cases under:

O’Keefe V

U.S. Postal

Service, United States Court of Appeals, Federal
Circuit, 318 F. 3d 1310 (Fed. Cir. 2002), Brook v.
Corrado, 999 F. 2d 523 (Fed.Cir. 1993) Lachance v.
Merit

Sys.

Prot.

Bd., 147

F.3d

1367,

1371

(Fed.Cir. 1998) Mclntire v. Fed. Emergency Mgmt.
Agency, 55 M.S.P.R. 578, 583 n. 4 (1992), Riley v.
Dep't of the Army, 53 M.S.P.R. 683, 688 (1992), Shaw
v. Dep't of the Air Force, 80 M.S.P.R. 98, 106-07
(1998) and Katz V. United States, U.S. Supreme
Court 389 U.S. 347 and Douglas vs Veterans
Administration et al, 5 MSPB 313 (1981).

16

It is my judgement that the Federal Circuit Court of
Appeals and the MSPB AJ [the Board] abused their
discretion under Charge 1, Conduct Unbecoming a
Customs and Border Protection Officer (CBPO). The
conversation that was video recorded and used as
evidence

to

sustain

Charge

1

took

place

in

my personally rented hotel room, my home for the
evening, and therefore any activity within my home,
as long as it is not criminal in nature! and the record
show in my case there was “zero” criminal behavior
on mv part throughout my entire Hotel room stay on
July 8,

2015, is fully protected by my U.S.

Constitutional Rights under the First (1st) and
Fourth (4th) Amendments to the U.S. Constitution, as
I had a reasonable expectation of privacy and am free
to voice my personal opinion on any matter. Neither
the Federal Circuit nor the MSPB A.J. addressed the
issues

properly because both

referred to

the

conversation as taking place in a hotel room!
implying someone else’s room or even implying in a
public area of the Hotel, which was not the case at
17

all.

Further, the Agency investigator in charge;

Department of Homeland Security (DHS) Office of
Inspector General (OIG) Senior Special Agent (SSA)
Sara Arrasmith, admitted under oath during the
MSPB hearing that the Agency did not have a legal
authority to be present in my personally rented Hotel
room and that they did not have a legally executed
search warrant. Further, the record reflects that
SSA Arrasmith, and her cooperating witness, both
knew “days prior” that the meeting being held in my
personally rented hotel room was a Union Meeting,
protected under the Fedeal Labor and Management
Relations Statute (5USC71). I also presented these
same arguments of a violation of my First and Fourth
Amendment Rights and violation of 5USC71 on the
record during my Oral Reply to my proposed
termination on March 28, 2017, and both the Federal
Circuit and the MSPB AJ errored in not fully
reviewing the record and applying these legal
precedents I provided (See . Katz V United States,
389 U.S. 347 U.S. Supreme Court).
18

Under Charge 2, Lack of Candor, and based on my
judgment, the Federal Circuit was required to answer
these closely related and precedent-setting questions
of exceptional importance: The MSPB AJ abused his
discretion and the Federal Circuit errored by
modifying the scope of the sustained Specification, as
written, in both the Notice of Proposed Removal and
the

Removal

Action.

Only

[the

charge]

and

specifications set out in the Notice and Decision may
be used to justify punishment because due process
requires that an employee be given notice of the
charges against him in sufficient detail to allow the
employee to make a fully informed reply.

The

evidence is clear that the specification under Charge
2, that was sustained by the MSPB AJ and upheld by
the Federal Circuit, was a modified Specification and
was not described fully or accurately, as written in
the Notice and Decision Letters removing me. See
O’Keefe V U.S. Postal Service, United States Court
ofAppeals, Federal Circuit, 318 F. 3d 1310 (Fed. Cir.
2002)Brook

v.

Corrado, 999
19

F.2d

523,

526-27

(Fed.Cir. 1993); Lachance v. Merit Sys. Prot. Bd., 147
F.35 1367, 1371 (Fed.Cir. 1998). The Board's review
of the agency's decision is likewise limited solely to
the grounds invoked by the agency. Mclntire v. Fed.
Emergency Mgmt. Agency, 55 M.S.P.R. 578, 583 n. 4
(1992) (stating that the Board will not consider
allegations of misconduct related to the charges
"because they were not specified in the agency's
proposal notice"); Riley v. Dep't of the Army, 53
M.S.P.R.

683,

688

(1992)

(finding

that

the

administrative judge erred by sustaining a charge
that was not specified by the agency). In my case, the
Proposal Notice and Decision differed greatly in
substance (“Should vs Must”), which alone is a
reversible error.

More importantly and relative to

my case, is that the Board may not substitute what it
considers to be a better basis for removal than what
was identified by the Agency and the Panel errored in
Affirming this “modified” Specification. See Shaw v.
Dep’t of the Air Force, 80 M.S.P.R. 98, 106-07 (1998)
("The Board cannot adjudicate an adverse action on
20

the basis of a charge that could have been brought
but was not.

Rather, the Board is required to

adjudicate an appeal solely on the grounds invoked
by the agency, and it may not substitute what it
considers to be a more appropriate charge."; Riley; 53
M.S.P.R. at 688; Gottlieb v.

Veterans Admin., 39

M.S.P.R. 606, 609-10 (1989) (reversing a judge's
adjudication that the agency proved a charge on
different grounds than those stated in the charge
itself). By accusing me of specific misdeeds that were
not specifically identified and within the full scope of
the Notice of Proposed Removal and Removal
Decision, the MSPB AJ [The Board] exceeded the
scope of his authority and the Federal Circuit
Affirmation of the Board’s decision was in error, by
their not following both their own precedent setting
case law, in sustaining Charge 2. Further, the MSPB
AJ and Federal Circuit failed to properly and fully
apply the evidence presented by the Agency in
considering the on the record document evidence and
testimony provided during the Agency case and
21

MSPB Hearing, as there is no evidence whatsoever in
this entire easel Preponderance or Substantial, that
supports the Specification that I “implied” that
female employees should or must “provide [me]
sexual favors in exchange for Union Representation”.
Further, the lack of specificity in the Notice and
Decision as to the full details of the actual questions
directed toward me, and my actual full responses
thereto, indicates that the Agency attempted to use a
General Charge under a Charge and Specification
format, neither of which were supported by the
evidence

at

all,

by

Substantial standards.

either

Preponderance

or

In fact, there is evidence

provided by one undercover cooperating employee,
Mrs. Cynthia DeMara, that she knew my use of
“Brash language” and comments, as described by the
AJ and with which I was not charged, were in fact
“Jokes” and “Joking”, which was and remains

common workplace banter at the location we both
were assigned to, as was also testified to by the
Deciding Official, Hector Mancha, during the MSPB
22

Hearing. Likewise, the MSPB AJ did not apply the
same review standard here, as he did in not
sustaining the two other specifications under Charge
1 which had the exact same language concerning
“providing sexual favors in exchange for Union
Representation”, which leads me to believe that the
AJ deviated from the Specification under Charge 2
deliberately, and the Federal Circuit errored in
affirming the decision, without conducting a full
review of the case evidence.
3) It is my judgement that the MSPB AJ did not
apply all the facts and evidence, and/or failed to
properly apply the facts and evidence, and the
Federal Circuit errored in upholding the Specification
under Charge 3.

The undisputed facts within the

hearing evidence are clear and was admitted to,
under oath, during the MSPB Hearing by the DHS
Senior

Special Agent

in

charge

of my

case

investigation! Sara Arrasmith, that Mr. James Y.
Tong; was involved in and had full knowledge of the

23

Investigation by DHS, and coordinated the schedules
of Cynthia Demara and Zeidy Loyoza for the illegal
surveillance conducted in my personally rented Hotel
room. Thus, just as the other Specifications under
Charge 31 concerning Mr. DiBene and Mr. Perez were
not upheld by the MSPB AJ, neither should the
Specification concerning Jimmy Tong be upheld, as
the MSPB AJ and the Federal Circuit both errored by
not applying the evidence and law equally to all the
Specifications under Charge 3 (See Douglas vs
Veterans Administration et al, 5 MSPB 313 (1981).
REASONS FOR GRANTING THE PETITION
In summation, I would like to add the fact that the
record evidence is clear, from the date of the illegal
surveillance in my personal Hotel room on July 8,
2015 and up until I received my Notice of proposed
removal in February 2017, the Respondent never lost
trust in me as I performed the full range of duties of
my position as a CBPO Prosecutions Officer, where I
took oath affirmations, signed sworn affidavits and
24

presented and testified in criminal cases on behalf of
the Government [Agency], within the District of
Arizona (See Douglas vs Veterans Administration et
al, 5 MSPB 313 (1981).

Further, it is also my

judgement that the Supreme Court should grant this
petition because, in addition to the aforementioned
issues, this case presents several questions of
exceptional importance regarding the Constitutional
over-reach by investigative entities, Federal Agency
Managers

and

“undercover”

Bargaining

Unit

Employees, as well as several serious harmful errors,
due process violations and abuse of authority by the
MSPB AJ, affirmed by the Federal Circuit Court of
Appeals.

These questions of have resulted in a

severe, exceptional and direct impact; and is now
highly important to every Federal employee within
the U.S. Government; numbering in the hundreds of
thousands (See. Katz V United States, 389 U.S. 347
U.S. Supreme Court)

25

DATED this 7h day of July 2020.

Josepn H. Martin, Petitioner, Pro Se

Attachment (la)
Court of Appeals for The Federal Circuit Decision
Denying a Rehearing En Banc under Case Number
2019-1578 (Joseph H. Martin v Department of
Homeland Security), Dated June 12, 2020.

Attachment (3a)
Court of Appeals for The Federal Circuit Decision
under Case Number 2019-1578 (Joseph H. Martin v
Department of Homeland Security), Dated April 20,
2020.

26

Attachment (12a)
Final Decision of the Merit System Protection Board
(MSPB) Administrative Law Judge (AJ) upholding
my termination from the Department of Homeland
Security (DHS), under Case Number 2019-1578
(Joseph H. Martin v Department of Homeland
Security), Dated November 28, 2018.

27

